Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




VIRGINIA IMPROPERLY CLAIMED
  FEDERAL REIMBURSEMENT
     FOR MOST REVIEWED
   MEDICAID PAYMENTS TO
PIEDMONT GERIATRIC HOSPITAL


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Daniel R. Levinson
                                                    Inspector General

                                                        July 2014
                                                      A-05-12-00056
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Virginia Medicaid Program

The Department of Medical Assistance Services (State Medicaid agency) administers the Virginia
Medicaid program according to the CMS-approved State plan. The State Medicaid agency makes
Medicaid payments to eligible hospitals and claims Federal reimbursement for a portion of the
payments. The Virginia Department of Behavioral Health and Developmental Services operates
two State-owned hospitals that focus on inpatient treatment for geriatric mental illnesses.
Piedmont Geriatric Hospital (Piedmont) is one of those hospitals. The Virginia Department of
Health is the State survey agency responsible for determining whether the hospitals meet the
standards for Medicaid participation. During the audit period, January 1, 2006, through
December 31, 2010, Piedmont was enrolled in Medicaid as a hospital and was an institution for
mental diseases (IMD).

Federal Requirements

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals and
two special Medicare CoP applicable to IMDs providing such services. The basic Medicare CoP
address issues such as licensing, quality of care, safety, patient rights, self-assessment and
performance improvement, and service availability. The special Medicare CoP specify staffing
and medical record requirements.

To demonstrate compliance with the basic and special Medicare CoP, facilities must undergo
review by qualified health care professionals. That review provides CMS with reasonable
assurance that participating facilities are improving the health and protecting the safety of
Medicaid beneficiaries. For periods in which an IMD does not demonstrate compliance with the
basic and special Medicare CoP, all payments it receives from the State Medicaid agency for
inpatient hospital services to patients aged 65 or older are ineligible for Federal reimbursement.




                                                 i
CMS made a technical error when it issued regulations for Medicare transplant center CoP in
2007. Effective June 28, 2007, it inadvertently omitted certain regulations for Medicare CoP
relevant to this audit. CMS formally reinstated the omitted regulations effective
October 26, 2007. Despite the omission, CMS’s implementing guidance remained in effect from
June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for payments to Piedmont for inpatient hospital services it provided to patients
aged 65 or older in accordance with certain Federal requirements for those services.

SUMMARY OF FINDING

Most of the State Medicaid agency’s claims for Federal reimbursement for payments to
Piedmont for inpatient hospital services it provided to patients aged 65 or older were not in
accordance with Federal requirements because Piedmont did not demonstrate compliance with
the special Medicare CoP during the audit period. Of the $39,365,326 in Federal reimbursement
claimed for that period, $36,903,169 for claims with dates of service outside the regulatory gap
period was not allowable. We have not provided an opinion on the allowability of the remaining
$2,462,157, which was for claims with dates of service during the regulatory gap period. The
State Medicaid agency claimed the $39,365,326 in Federal reimbursement because it believed
that Piedmont had met all requirements to be eligible for Medicaid payments for the inpatient
hospital services it provided to patients aged 65 or older.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

   •   refund $36,903,169 to the Federal Government for its share of payments to Piedmont for
       inpatient hospital services it provided to patients aged 65 or older on dates outside the
       regulatory gap period,

   •   work with CMS to determine whether the State Medicaid agency should refund an
       additional $2,462,157 to the Federal Government for its share of payments to Piedmont
       for inpatient hospital services it provided to patients aged 65 or older on dates during the
       regulatory gap period, and

   •   ensure that it claims Federal reimbursement for Medicaid payments for inpatient hospital
       services provided to patients aged 65 or older in IMDs only if those IMDs can
       demonstrate compliance with the special Medicare CoP.




                                                 ii
STATE MEDICAID AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations and did not comment on our third recommendation. The State
Medicaid agency did not concur with our first and second recommendations because it believes
that Piedmont demonstrated compliance with the special Medicare CoP throughout the audit
period. The State Medicaid agency also did not concur with our second recommendation
because it believes that Piedmont did not need to comply with regulations omitted during the
regulatory gap period.

After reviewing the State Medicaid agency’s comments, we maintain that our finding and
recommendations are valid. Federal Medicaid requirements mandate that inpatient hospital
services provided to patients aged 65 or older in IMDs are eligible for Federal reimbursement
only if those IMDs demonstrate compliance with the special Medicare CoP. We maintain that
Piedmont did not demonstrate such compliance during the audit period. Furthermore, CMS’s
inadvertent omission of regulations for Medicare CoP was a technical error, and its
implementing guidance remained in effect during the regulatory gap period.




                                               iii
                                                    TABLE OF CONTENTS

                                                                                                                                            Page

INTRODUCTION......................................................................................................................... 1

     BACKGROUND ...................................................................................................................... 1
       Medicaid Program ............................................................................................................... 1
       Virginia Medicaid Program ................................................................................................ 1
       Federal Requirements ......................................................................................................... 1

     OBJECTIVE, SCOPE, AND METHODOLOGY .................................................................... 2
       Objective ............................................................................................................................. 2
       Scope ................................................................................................................................... 2
       Methodology ....................................................................................................................... 2

FINDING AND RECOMMENDATIONS .................................................................................. 2

     FEDERAL REQUIREMENTS ................................................................................................. 3
       Medicaid Payments ............................................................................................................. 3
       Medicaid Service Definition ............................................................................................... 3
       Demonstrating Compliance With Medicare Conditions of Participation ........................... 4

     PIEDMONT DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
     MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD ......... 4

     RECOMMENDATIONS .......................................................................................................... 5

     STATE MEDICAID AGENCY COMMENTS ........................................................................ 5

     OFFICE OF INSPECTOR GENERAL RESPONSE ............................................................... 6

APPENDIX

     STATE MEDICAID AGENCY COMMENTS




                                                                       iv
                                      INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Virginia Medicaid Program

The Department of Medical Assistance Services (State Medicaid agency) administers the Virginia
Medicaid program according to the CMS-approved State plan. The State Medicaid agency makes
Medicaid payments to eligible hospitals and claims Federal reimbursement for a portion of the
payments. The Virginia Department of Behavioral Health and Developmental Services operates
two State-owned hospitals that focus on inpatient treatment for geriatric mental illnesses.
Piedmont Geriatric Hospital (Piedmont) is one of those hospitals. The Virginia Department of
Health is the State survey agency responsible for determining whether the hospitals meet the
standards for Medicaid participation. During the audit period, January 1, 2006, through
December 31, 2010, Piedmont was enrolled in Medicaid as a hospital and was an institution for
mental diseases (IMD).

Federal Requirements

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare Conditions of Participation (CoP) generally applicable to all hospitals and
two special Medicare CoP applicable to IMDs providing such services. The basic Medicare CoP
address issues such as licensing, quality of care, safety, patient rights, self-assessment and
performance improvement, and service availability. The special Medicare CoP specify staffing
and medical record requirements. For periods in which an IMD does not demonstrate
compliance with the basic and special Medicare CoP, all payments it receives from the State
Medicaid agency for inpatient hospital services to patients aged 65 or older are ineligible for
Federal reimbursement.

In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS corrected a technical error that it had made when it
issued regulations for Medicare transplant center CoP that became effective June 28, 2007.
When it amended 42 CFR part 482, subpart E, in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS
inadvertently omitted 42 CFR §§ 482.60–482.62, which are regulations for Medicare CoP
relevant to this audit. The correction reinstated the omitted regulations effective



                                                1
October 26, 2007. Despite the omission, CMS’s implementing guidance (e.g., manuals)
remained in effect from June 28 through October 25, 2007 (the regulatory gap period).

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State Medicaid agency claimed Federal
reimbursement for payments to Piedmont for inpatient hospital services it provided to patients
aged 65 or older in accordance with certain Federal requirements for those services.

Scope

We reviewed Piedmont’s compliance for the period January 1, 2006, through December 31, 2010,
with certain Federal requirements for inpatient hospital services provided to patients aged 65 or
older in IMDs. We identified $39,365,326 in Federal reimbursement for Medicaid payments to
Piedmont for such services provided during the audit period. We limited our review of the State
Medicaid agency’s internal controls to those significant to the objective of our audit.

Methodology

To accomplish our objective, we:

   •    examined Federal and State Medicaid requirements for inpatient hospital services
        provided to patients aged 65 or older in IMDs,

   •    identified periods for which neither the State Medicaid agency nor Piedmont could
        demonstrate Piedmont’s compliance with certain Federal requirements for such services,

   •    held discussions with officials of the State Medicaid agency and reviewed its Medicaid
        payment records for such services, and

   •    determined the amount of Federal reimbursement for payments to Piedmont for claims
        with dates of service during periods when it did not demonstrate compliance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                          FINDING AND RECOMMENDATIONS

Most of the State Medicaid agency’s claims for Federal reimbursement for payments to
Piedmont for inpatient hospital services it provided to patients aged 65 or older were not in
accordance with Federal requirements because Piedmont did not demonstrate compliance with


                                                2
the special Medicare CoP during the audit period. Of the $39,365,326 in Federal reimbursement
claimed for that period, $36,903,169 for claims with dates of service outside the regulatory gap
period was not allowable. We have not provided an opinion on the allowability of the remaining
$2,462,157, which was for claims with dates of service during the regulatory gap period. The
State Medicaid agency claimed the $39,365,326 in Federal reimbursement because it believed
that Piedmont had met all requirements to be eligible for Medicaid payments for the inpatient
hospital services it provided to patients aged 65 or older.

FEDERAL REQUIREMENTS

For States to claim Federal reimbursement for their Medicaid payments for inpatient hospital
services provided to patients aged 65 or older in IMDs, those services must meet the Federal
definition of such services. This definition requires the provider to demonstrate compliance with
the basic Medicare CoP generally applicable to all hospitals and two special Medicare CoP
applicable to IMDs providing such services.

Medicaid Payments

States may claim Federal reimbursement for a portion of their Medicaid medical assistance
payments (section 1903(a)(1) of the Act). Medical assistance includes inpatient hospital services
provided to patients aged 65 or older in IMDs (section 1905(a)(14) of the Act).

Medicaid Service Definition

Regulations in 42 CFR § 440.140(a) implement section 1905(a)(14) of the Act and require IMDs
that provide inpatient hospital services to patients aged 65 or older to meet Medicare psychiatric
hospital requirements stated in 42 CFR § 482.60. Regulations in 42 CFR § 482.60(b) require
such IMDs to meet the basic Medicare CoP generally applicable to all hospitals
(42 CFR §§ 482.1–482.23 and 42 CFR §§ 482.25–482.57), and regulations in
42 CFR § 482.60(c) and (d) require the same IMDs to meet two special Medicare CoP applicable
to psychiatric hospitals (42 CFR §§ 482.61 and 482.62). 1

The Medicare CoP included in the Medicaid definition of inpatient hospital services provided to
patients aged 65 or older in IMDs are minimum standards that provide a basis for improving
quality of care and protecting the health and safety of Medicaid beneficiaries. The basic
Medicare CoP address issues such as licensing, quality of care, safety, patient rights, self-
assessment and performance improvement, and service availability (42 CFR §§ 482.1–482.23
and 42 CFR §§ 482.25–482.57). The special staffing Medicare CoP requires that IMDs that
provide inpatient hospital services to patients aged 65 or older “have adequate numbers of
qualified professional and supportive staff to evaluate patients, formulate written, individualized
comprehensive treatment plans, provide active treatment measures, and engage in discharge
planning” (42 CFR § 482.62). The special medical record Medicare CoP requires that “medical

1
  Psychiatric hospitals with more than 16 beds are both hospitals and IMDs (section 1905(i) of the Act), but not all
facilities that are both hospitals and IMDs are classified as psychiatric hospitals, e.g., Piedmont. However, the cited
statutes and regulations require all IMDs that provide inpatient hospital services to patients aged 65 or older to meet
the Medicare CoP applicable to Medicare-participating psychiatric hospitals.


                                                           3
records … permit determination of the degree and intensity of the treatment provided to
individuals who are furnished services in the institution” (42 CFR § 482.61).

Demonstrating Compliance With Medicare Conditions of Participation

To demonstrate compliance with the basic and special Medicare CoP, facilities must undergo
review by qualified health care professionals. Facilities can demonstrate compliance with the
basic and special Medicare CoP by successfully completing a survey of those CoP performed by
the State survey agency (42 CFR § 488.10(a)). During our audit period, facilities could also
generally demonstrate compliance with the basic Medicare CoP 2 by being accredited as a
hospital by CMS-approved organizations, such as the Joint Commission. 3 However, during that
time, such accreditation did not demonstrate compliance with the special Medicare CoP
(42 CFR § 488.5(a)). 4 Instead, facilities had to be specially surveyed by qualified health care
professionals to demonstrate compliance with the special Medicare CoP. 5 Accreditation or
survey by qualified health care professionals provides CMS with reasonable assurance that
participating facilities are improving the health and protecting the safety of Medicaid
beneficiaries.

For periods in which an IMD does not demonstrate compliance with the basic and special
Medicare CoP, all payments it receives from the State Medicaid agency for inpatient hospital
services to patients aged 65 or older are ineligible for Federal reimbursement.

PIEDMONT DID NOT DEMONSTRATE COMPLIANCE WITH SPECIAL
MEDICARE CONDITIONS OF PARTICIPATION DURING THE AUDIT PERIOD

Piedmont did not demonstrate compliance with the special Medicare CoP during the audit
period. The Joint Commission accredited Piedmont as a hospital throughout the audit period,
and that accreditation generally demonstrated Piedmont’s compliance with the basic Medicare
CoP. However, Piedmont was never specially surveyed to demonstrate compliance with the
special Medicare CoP. 6 Therefore, Piedmont’s inpatient hospital services to patients aged 65 or


2
  One exception is the utilization review requirement in 42 CFR § 482.30; however, compliance with the utilization
review requirement was outside the scope of our audit.
3
 The Joint Commission was previously known as the Joint Commission on Accreditation of Healthcare
Organizations and is so referenced in 42 CFR § 488.5(a).
4
 After the audit period (January 1, 2006, through December 31, 2010), CMS granted the Joint Commission deeming
authority with respect to the two special Medicare CoP (76 Fed. Reg. 10598 (Feb. 25, 2011)).
5
 The CMS State Operations Manual, section 2718A, implements Medicare psychiatric hospital requirements in
42 CFR §§ 482.60–482.62, which are also applicable to IMDs that provide inpatient hospital services to patients
aged 65 or older.
6
 The State Medicaid agency provided evidence that Piedmont demonstrated compliance with the special Medicare
CoP via a November 2011 survey performed by the State survey agency. However, that survey cannot retroactively
demonstrate Piedmont’s compliance with the special Medicare CoP during the audit period, which ended on
December 31, 2010.


                                                         4
older did not meet the Medicaid definition of such services, and all payments it received from the
State Medicaid agency for such services were ineligible for Federal reimbursement.

Of the $39,365,326 in Federal reimbursement claimed for Medicaid payments to Piedmont for
inpatient hospital services it provided to patients aged 65 or older on dates during the audit
period, the State Medicaid agency improperly claimed $36,903,169 for claims with dates of
service outside the regulatory gap period. We have set aside for further review by CMS and the
State Medicaid agency $2,462,157 in Federal reimbursement for payments to Piedmont for
claims with dates of service during the regulatory gap period. 7

The State Medicaid agency claimed the $39,365,326 in Federal reimbursement because it
believed that Piedmont had met all requirements to be eligible for Medicaid payments for the
inpatient hospital services it provided to patients aged 65 or older.

RECOMMENDATIONS

We recommend that the State Medicaid agency:

    •   refund $36,903,169 to the Federal Government for its share of payments to Piedmont for
        inpatient hospital services it provided to patients aged 65 or older on dates outside the
        regulatory gap period,

    •   work with CMS to determine whether the State Medicaid agency should refund an
        additional $2,462,157 to the Federal Government for its share of payments to Piedmont
        for inpatient hospital services it provided to patients aged 65 or older on dates during the
        regulatory gap period, and

    •   ensure that it claims Federal reimbursement for Medicaid payments for inpatient hospital
        services provided to patients aged 65 or older in IMDs only if those IMDs can
        demonstrate compliance with the special Medicare CoP.

STATE MEDICAID AGENCY COMMENTS

In written comments on our draft report, the State Medicaid agency did not concur with our first
and second recommendations and did not comment on our third recommendation. The State
Medicaid agency did not concur with our first and second recommendations because it believes
that Piedmont demonstrated compliance with the special Medicare CoP throughout the audit
period. The State Medicaid agency indicated that Piedmont demonstrated such compliance via
surveys or inspections of Piedmont’s compliance with “substantially equivalent” State
requirements. During the audit period, these surveys or inspections were performed by various
State agencies other than the State survey agency. The State Medicaid agency also did not
concur with our second recommendation because it believes that Piedmont did not need to
comply with regulations omitted from the Federal Register during the regulatory gap period.


7
 Despite CMS’s inadvertent omission of 42 CFR §§ 482.60–482.62 in 72 Fed. Reg. 15198 (Mar. 30, 2007), CMS’s
implementing guidance remained in effect during this period.


                                                     5
The State Medicaid agency’s comments are included in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State Medicaid agency’s comments, we maintain that our finding and
recommendations are valid. Federal Medicaid requirements mandate that inpatient hospital
services provided to patients aged 65 or older in IMDs are eligible for Federal reimbursement
only if those IMDs demonstrate compliance with the special Medicare CoP.

The State Medicaid agency indicated that Piedmont demonstrated compliance with the special
Medicare CoP throughout the audit period, but we disagree. CMS had written guidance in place
that implemented Medicare psychiatric hospital requirements in 42 CFR §§ 482.60–482.62 and
established how facilities should demonstrate compliance with the special Medicare CoP.
CMS’s State Operations Manual, section 2718A, required both Medicare- and Medicaid-
participating facilities to undergo surveys performed by either the State survey agency or CMS
contractors. Those surveys had to be performed by qualified health care professionals in
accordance with guidance in Appendix AA of the manual. During our audit, we asked the State
Medicaid agency to confirm or correct our understanding that Piedmont had never been
“surveyed by CMS (or its contractors), State personnel, or any other qualified health care
professionals to demonstrate … compliance with the special Medicare CoP.” The State
Medicaid agency specified only one exception, a November 2011 survey that cannot
retroactively demonstrate Piedmont’s compliance with the special Medicare CoP during the audit
period, which ended on December 31, 2010. Furthermore, in its written comments on our draft
report, the State Medicaid agency did not show that Piedmont complied with the Federal
regulatory requirements or CMS’s guidance. Therefore, Piedmont did not demonstrate
compliance with the special Medicare CoP during the audit period.

The State Medicaid agency also indicated that Piedmont did not need to comply with regulations
omitted from the Federal Register during the regulatory gap period, but we maintain that our
second recommendation is valid. In 72 Fed. Reg. 60787 (Oct. 26, 2007), CMS acknowledged
that it inadvertently omitted regulations for Medicare CoP from the Federal Register, but it also
corrected the omission and indicated that it was a technical error. Moreover, CMS’s
implementing guidance, e.g., the State Operations Manual, remained in effect during the
regulatory gap period.




                                                6
APPENDIX
                                                                                                                Page 1 of6


               APPENDIX: STATE MEDICAID AGENCY COMMENTS




                             COMMONWEALTH of VIRGINIA
CYNTHIA B. JONES
                                Department ofMedicalAssistance Services                        SUITE 1300
DIRECTOR                                                                                       600 EAST BROAD STREET
                                                                                               RICHMONO, VA23219
                                                                                               804/761.>-7933
                                                    Aprill7,2014                               6001343-0634 (iDD)
                                                                                               v.w·w.dmas.virginia.go~


       Sheri L . Fulcher
       Regional Inspector General for Audit Services
       Office of Audit Services, Region V
       233 North Michigan, Suite 1360
       Chicago, IL 60601

                         RE: OIG Report N umbers A-05-12-00055 and A -05-12-00056

       Dear Ms. Fulcher:

               The Virginia Department of Medical Assistance Services (Dtv1AS) appreciates the
        opportunity to comment on two Office oflnspect.or General (OIG) draft reports entitled Virginia
        Improperly Claimed Federal Reimbursement for Most Reviewed Medicaid Payments to Catawiba
        Hospital (A-12-05-000555) and Virginia Improperly Claimed Federal Reimbursement for Most
        Reviewed Medicaid Payments to P iedmont Geriatric Hospital (A-05-12-00056) .

                DMAS strongly disagrees with OIG's teC().Ifitljendation. it refund to the federal
        government $17,395,647 for payments made for patients at Catawba Hospital ("Catawba") and
        $36,903, 169 for payments made to patients at Piedmont Geriatric Hospital ("Piedmont") during
        the audit period (January I, 2006 tbrough December 31, 20 l 0). The payments were allowable
        because, for the duration ofthe audit period, both hospitals met the requirements ofthe special
        Medicare conditions ofparticipation (CoP). From January I, 2006 to December 31,2010,
        Catawba and Piedmont were subject to and in compliance with state requirements governing
        behavioral health, which impose requirements substantially equivalent to the standards set forth
        in the special Medicare CoPs.

                DMAS a lso strongly disagrees with OIG's recommendation that it work with the Centers
        for Medicare & Medicaid Services (CMS) to determine whether the State should refund ·
        $ 1,2l2,002 in federal funding for Catawba and. $2,462,157 in federal funding for Piedmont
        during the " regulatory gap" period between June and October 2007. Because those regulations
        were not published in the Federal Register, they were not in effect during that time period. In
        any event, the hospitals both met the requirements of the Medicare special CoPs during that time.

        I. 	       The Draft Audit Does Not Establish Th:at the Two Hospitals Did Not Comply witl1
                   42 C.F.R. § 440.140.

               The recommendat ions ofthe draft audit are based on the statement in 42 C.F.R.
        § 440.140 that inpatient hospitals for individuals age 65 or older means services provided in an

        DC: 5223109-6
                                                                                                       Page 2 of6




institution for mental diseases that "meets the requirements" specified in§ 482 .60(b), (c), and
(e), which in turn reference the special conditions ofparticipation for psychiatric hospitals set
forth at§ 482.61 and§ 482.62. The audit assumes that this requires Medicare certification, but
this is not what the regulation provides. This is apparent when contrasted with other language in
the C.F.R. which clearly requires certification. For example, inpatient psychiatric services for
individuals under age 21 is defined as services "provided by ... a psychiatric hospital that
undergoes a State survey to determine whether the hospital meets the requirements for
participation in Medicare as a psychiatric hospital." 42 C.F.R. § 440.160(b)(l) (emphasis
added); see also 42 C.P.R. § 442.30(a) ("FFP is available in expenditures for l\lf and ICFIIID
services only ifthe facility has been certified as meeting the requirements for Medicaid
participation.") (emphasis added). No such survey or certification requirement is included in the
definition ofthe IMD service for individuals age 65 and older. While certification can confum
that a facility meets the standards set forth in the conditions ofparticipation, the absence of
certification is not indicative of a failure to meet those standards. The audit itself does not make
any finding that the operations ofthe hospitals feU short of the requirements set forth in the
special conditions ofparticipation.

        The special conditions ofparticipation for psychiatric hospitals address certain medical
record requirements, 42 C.P.R.§ 482.61 , and certain staff requirements, 42 C.F.R. § 482.62.
The Commonwealth of Virginia has comparable requirements for both recordkeeping and
staffing, and both hospitals were subject to these requirements during the audit period. These
requii·ements are set forth in the following documents:

    •   Departmental Instruction lll(TX)Ol, Requirements for Treatment and Habilitation
        Pla.rming. This document provides a uniform practice guidelines for state facilities
        licensed by the Department of Behavioral Health and Developmental Services
        ("DBHD~").


    • 	 Departmental Jnstruction 107CTXlOO, Assessment ofMedical/Surgical Status. This
        document establishes policies and procedures for initial medical assessment and ongoing
        care of patients and for assessing changes in a client's physical status in hospitals
        operated by DBIIDS (previously known as the Depa1tment of Mental Health, Mental
        Retardation and Substance Abuse Services).

    • 	 Departmental Instruction No. I08(TX)00, Medical Emergency Response Systems. Tllis
        document establishes policies and procedures governing emergency response in
        psychiatric hospitals.

    • 	 Departmentallnsn·uction 701, Organization and Maintenance ofthe Clinical Record.
        This document govems the integrity ofthe clinical record and the information contained
        therein, including standardized requirements for the organization and maintenance of
        records. It includes facility procedures as well as training and oversight requirements.

    • 	 Discharge Protocols for Community ServEces Boards and State Mental Health Facilities.
        This document provides protocols governing discharge procedures. The document also
        addresses assessments and treatment planning.
                                                                                                       Page 3 of6




   • 	 Health Information Management Manual. This document includes minimum
       requirements for documentation, storage, review, and release ofclinical records and
       health information. It further addresses the content ofquantitative and qualitative records
       reviews to ensure that required services are performed with in established timeframes and
       the results are documented in the clinical record.

   • 	 Problem Oriented Records Manual (in effect at time of audit). This document governed
       the standards for documentation ofservice delivery to patients, including
       interdisciplinary progress notes.


Moreover, the State had in place a nwuber ofdifferent monitoring protocols to ensure that the
hospitals adhered to these policies and procedures. Taken together, these establish that the
hospitals met the requirements of the relevant nues during the audit period.

        Section 482.61lays out five standards relating to medical record requirements which are
also reflected in the state policies. The purpose of these standards is to permit determination of
the "degree and intensity ofthe treatment provided to individuals who are fw'llished services in
the institution." § 482.61. lbe five staudards are:

   a) 	 Development ofassessment/diagnostic data. This standard requires that "medical records
        must stress the psychiatric components of the record, including history of findings and
        treatment provided for psychiatric condition for which the patient is hospitalized."
        Virginia' s governing protocols likewise require documentation of"significant events and
        information affecting the client's psychiatric or medical condition." Departmental
        Instruction 111 (TX) 01, Requirements for Treatment and Habi litation Planning, at 11.
        Furthermore, the DBHDS Health lnfonnation Manual requires facilities to maintain
        active clinical records that fully and accurately describe the individual's condition at the
        time ofadmission and discharge. Health Information Manual, at 4.
   b) 	Psychiatric Evaluation. This standard requires that each patient receive a thorough
        psychiatric evaluation within 60 hours of admission that documents specific factors in the
        patient's medical history and current status . § 482.61(b). The Virginia protocols are
        more stringent, requiring the initial medical aud psychiatric evaluation to be completed
        within 24 hours of admission. Departmental Instruction Ill (TX) 01, Requirements for
        Treatment and Habilitation Planning, at Appendix A.
   c) 	 Treatment plan. This standard requires each individual to have a comprehensive
        treatment plan that is based on an inventory of the patient's strengths and disabilities. §
        482.6l(c). The Virginia policies require a treatment/habilitation plan--including an
        initial treatment plan with annual revisions. Departmental Instruction 111 (TX) 01,
        Requirements for Treatment and Habilitation Plauning, at Appeudix A.
   d) 	 Recording progress. This standard requires progress notes to be recorded on certain
        intervals with precise notes as to the patient's progress. § 482.61(d). The Virginia
        policies likewise require, as part ofthe comprehensive treatment plan, that facilities
        include procedures for collecting data to assess progress towards achievement ofthe
        desired goals and objectives. Fw·thennore, the patient's treatment team is required to
                                                                                                      Page 4 of6




        maintain documentation as to the patient's response to interventions and progress toward
        achieving goals and objectives. Departmental Instruction 111 (TX) 01, Requirements for
        Treatment and Habilitation Planning, at 9- 11 .
   e) 	 Discharge planning and discharge summary. This standard req uires that the record of
        each patient who has been discharged include a discharge summary that includes a
        recapitulat ion ofthe patient's hospitalization and recommendation from appropriation
        services concerning follow-up or aftercare as well as a briefsummary ofthe patient's
        condition on discharge. Similar requirements are required by Virginia's guidelines and
        discharge protocols for state mental health facilities. Discharge Protocols for
        Community Services Boards and State Mental Health Facilities.

        Section 482.621ays out five standards relating to staffrequirements for psychiatric
hospitals. The five standards are:

   a) 	 Personnel. The standard requires the hospital employ sufficient numbers ofpersonnel to
       evaluate patients, formulate treatment p lans, provide treatment, and engage in discharge
       planning. § 482.62(a). The Commonwealth requires that initial treatment and
       habilitation plans be conducted by physicians, nurses, social workers, as well as expe1ts
       in nutrition, and rehabilitation. Department al Instruction 111 (TX) 01, Requirements for
       Treatment and Habilitation Planning, at Appendix A. Furthermore, while at the time
       there was no deeming status with regard to Joint Commission accreditation, both
       hospitals were in compliance with the Joint Commission requirement for hospitals that
       each facility have an adequate number and mix of staffto meet the care, treatment, and
       service needs ofthe patients. Joint Commission Hospital Accreditation Manual, 2007,
       HRl.IO.
   b) 	Director ofInpatient Psychiatric Sen,ices. The standard requires that the hospital have a
       director ofinpatient psychiatric services who meets certain requirements. § 482.62(b).
       Virginia likewise requires a faci lity director who ensures compliance with policies and
       procedures, provides st(lffwith necessary tr<tining, and ensutes the ongoing assessment of
       the facility's treatment planning process. !Furthermore, the policies require that each
       treatment team have a team leader focused on the client's need who is qualified to
       perform this function. Departmental Instruction 111 (TX) 01, Requirements for
       Treatment and Habilitation Planning, at 3-4.
   c) 	Availability ofMedical Personnel. The standard requires the availability ofmedical
       doctors or doctors ofosteopathy. § 482.62(c). Furthermore, the rule requires there be a
       qualified director of nursing services as well as adequate nursing staff, with experience in
       psychiatric nursing. Nurses should be available 24 hours a day. § 482.62(d). Virginia
       requires that each treatment team include a physician, and Virginia State requirements
       provide that a psychiatrist must be board certified and have completed
       approved/accredited psychiatric residency program. Virginia Department ofHuman
       Resources, Physician II/Psychiatrist, Minimum Qualifications. Furthermore, the State
       requires that there be a senior nurse on site and a medical response team, which includes
       three nurses, available 24 hours a day to respond to emergencies. DL 107(TX)OO, 107-5;
       DI108 (TX)00-108-6.
   d) 	Psychological Services. The standard requires that hospitals have available
       psychological services and social services to meet the needs of the patients. § 482.62(e)­
                                                                                                     Page 5 of6




      (f). Similarly, Virginia requires that each team developing a comprehensive treatment
      and rehabilitation plan to include, at a minimum, the client, physician, psychologist,
      social worker, and a nurse. Departmental Instruction Ill (TX) 01, Requirements for
      Treatment and Habilitation Planning, at 5.
   e) Therapeutic Activities. The rule requires the hospital provide a therapeutic activities
      program that meets the needs ofpatients. § 482.62(g). As described above, the State's
      requirements for treatment and habilitation planning require assessments and treatment
      plans in psychology, social work, nutrition, and rehabilitation. Departmental InstJ.uction
      Ill (TX) 01, Requirements for Treatment and Habilitation Planning, at Appendix A .

       We would be happy to provide more detail on the state requirements, including the
underlying documents referenced.

        Furthetmore, several state surveys done during the audH period demonstrate the
hospitals' compliance with these requirements. For example, from January 2006 to September
2010, the Virginia Department of Behavioral Heal th and Developmental Services (DBHDS)
reviewed the timeliness and completeness ofall required assessments, treatment plans, and
treatment plan updates at Catawba. Findings ofthese reviews are documented on quarterly
reports, which we would be happy to provide.

         Throughout the audit period, the facilities were subject to unannounced inspection by the
state Inspector General. Items reviewed included mission and values, active treatment, recovery
initiatives, staffing, and environmental conditions. Neither Catawba nor Piedmont had any
active findings requiring corrective action during this time period. In 2006, Catawba was
complimented for the steps it had taken to recruit and retain nursing staff, and staff levels were
found adequate during the visit. Among other things, the IG reported that the Catawba progran1
had an "organizational approach that is clinically sound and recovery oriented," that " staff
showed a remarkable level of pride and commitmentto their jobs and the PSR [psychosocial
rehabilitation] program;" and that "attendance levels were very high and no one was
unaccounted for." In an inspection ofPiedmont in November 2008, the state IG inspected
Piedmont and reported that "(r]ecord reviews ... demonstrated links between constuner goals,
treatment plans and scheduled activities. Ofthe groups observed on the day of the inspection, all
were well attended, led by the assigned facilitator and involved activities as noted on the
schedule. Group facilitators were energetically involving consumers in the activities." In
February 2009, the OIG conducted a follow-up visit in which it conducted systematic
observations of very large samples ofpsychosocial rehabilitations [PSR] activities and that "all
ofthe PSR programs performed well in these observations" and that Piedmont "scored above the
mean in both years."

        Moreover, as the draft audit notes on page 4, footnote 6 ofthe Piedmont report, Piedmont
demonstrated compliance with the special Medicare CoPs in a November 2011 survey performed
by the state survey agency. This survey indicates that in the year immediately following the
audit period (2011), Piedmont was indeed in compliance with the ~-pecial Medicare CoPs .

       The fact that Piedmont was subsequently reviewed and certified soon after the audit
period supp01ts our view that the state policies and practices to which the hospitals are subject
                                                                                                       Page 6 of6




are substantially equivalent to the federal requirements, and that both hospitals "met the
re-quirements" ofthe special Medicare CoPs during the time of the audit period.

II. 	   There is no reason for DMAS to work with CMS to resolve the a llowability of
        feder a l funds claimed during the regulatory gap period.

        The OIG recommended that DMAS work with CMS to determine the allowability of
$1,212,002 in federal funding for Catawba and $2,462,157 in federal funding for Piedmont
during what the OIG calls the "regulatory gap" period between June and October 2007 . During
this period, the regulations at 42 C.F.R. § 482.60--482.62 were omitted from the federal register.
Acco·rdingly, they were ineffective during that time period. SeeS U.S.C. § SS2(a)(J) ("Each
agency shall separately state and currently publish in the Federal Register for the guidance of the
public substantive rules ofgeneral applicability authorized by law...") (emphasis added); see
also 44 U.S.C. § 150S(a) (requiring regulations with legal effect to be published in the Federal
Register). The Commonwealth cannot be penalized for failure to demonstrate compliance with
these regulations when they were not published in the Federal Register. Regulations must be
published in the federal register for public inspection and viewing to create legally binding rights
or obligations. See e.g., Andrews v. Knowlton, 509 F.2d 898, 95 (2d. Cir. !975).

        Even if these regulations did apply, as described above, both Catawba and Piedmont were
in compliance with the special Medicare CoPs dU'l'ing this time. Accordingly, the OIG's
recommendation that DSS work with CMS to resolve the allowability of these funds during the
regulatory gap should be rejected.


Til. 	 Conclusion
        During audit period at issue, Catawba and Piedmont were both subject to substantially the
same requirements as the CMS Medicare sptX:ial CoP applicable to psychiatric hospitals through
state policies and procedures. Thus, there would be no basis for the hospitals to refund payments
for patients made during this time, as the hospitals complied with the requirements.

       Thank you for the opportunity to colllillent on the final audit report. We appreciate your
consideration ofthe infonnation provided in this letter. Ifyou have any questions, feel free to
contact Scott Crawford at 804-786-3639.




                                              ~JWi~/
                                              Cynthia B. Jones
                                              Director
